   QUALITY CONTROL REVIEW OF
AUDITED SPECIAL-PURPOSE FINANCIAL
STATEMENTS FOR FY 2008 AND FY 2007
        Department of Transportation

        Report Number: QC-2009-010
       Date Issued: November 17, 2008
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                                  Date:    November 17, 2008
           Special-Purpose Financial Statements for
           Fiscal Years 2008 and 2007, DOT
           Report Number: QC-2009-010

  From:    Rebecca C. Leng                                                         Reply to
                                                                                   Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits

    To:    The Secretary

           I respectfully submit the Office of Inspector General’s (OIG) Quality Control
           Review report on the Department of Transportation’s (DOT) audited
           Special-Purpose Financial Statements for Fiscal Years (FY) 2008 and 2007.

           The audit of DOT’s Special-Purpose Financial Statements as of and for the year
           ended September 30, 2008, was completed by KPMG LLP, of Washington, D.C.
           (see Attachment 1), under contract to OIG. We performed a quality control
           review of its audit work to ensure that it complied with applicable standards.
           These standards include Generally Accepted Government Auditing Standards and
           Office of Management and Budget Bulletin 07-04, “Audit Requirements for
           Federal Financial Statements,” as amended.

           KPMG concluded that the Special-Purpose Financial Statements (see
           Attachment 2) present fairly, in all material respects, the financial position of DOT
           as of September 30, 2008, and its net cost and changes in net position for the year
           then ended in conformity with accounting principles generally accepted in the
           United States, and the presentation pursuant to the requirements of TFM Volume 1,
           Part 2, Chapter 4700, as described in Additional Note No. 27. OIG audited last
           year’s DOT Special-Purpose Financial Statements, and we also expressed an
           unqualified opinion on those statements. 1



           1
               Report on Special-Purpose Financial Statements for Fiscal Years 2007 and 2006, Department of Transportation,
               Report Number FI-2008-012, November 15, 2007.
                                                                              2


Further, KPMG did not identify any deficiencies in internal controls over financial
reporting for the Special-Purpose Financial Statements that were considered to be
material weaknesses, nor did tests of compliance with TFM Volume 1, Part 2,
Chapter 4700 disclose any instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards or OMB Bulletin
No. 07-04.

In our opinion, the audit work performed by KPMG complied with applicable
standards.

We have also attached the management representation letter for the DOT
Special-Purpose Financial Statements (see Attachment 3).

We appreciate the cooperation and assistance of representatives of the Office of
Financial Management and KPMG. If we can answer any questions, please call
me at (202) 366-1407 or Earl Hedges, Program Director, at (410) 962-1729.

Attachments (3)

                                        #



cc: Office of Management and Budget, Office of Federal Financial Management
    Department of the Treasury, Financial Management Service
    U.S. Government Accountability Office
